HHS/OIG, Audit - "Review of Methodist Hospital Wage Data for the Fiscal Year 2009, Wage Indexes," (A-06-07-00098)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Methodist Hospital Wage Data for the Fiscal Year 2009, Wage Indexes," (A-06-07-00098)
June 13, 2008
Complete
Text of Report is available in PDF format (248 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Methodist Hospital (the Hospital) overstated contract labor
costs by $617,000 and understated contract labor hours by 11,143 on its fiscal
year (FY) 2006 Medicare cost report.  Under the inpatient prospective payment
system for acute-care hospitals, Medicare Part A pays hospital costs at
predetermined, diagnosis-related rates for patient discharges.  The Centers for
Medicare & Medicaid Services (CMS) adjusts prospective payments by the wage
index applicable to the area in which each hospital is located.  While gathering the
requested data for the audit, the Hospital identified the errors and reported
them to the fiscal intermediary.  Because the fiscal intermediary corrected the
Hospitals Medicare cost report, this report has no recommendations.